CERTIFICATE OF SERVICE
I, Marc J. Zilversmit, a member of the Bar of this Court, hereby certify that
on January 20, 2021, the parties agreed to electronic service in this case, and that
on March 22, 2021, a copy of the REPLY TO OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI in the above-entitled case was electronically mailed to:
ATTN: Jill Thayer, Esq.
Office of the California Attorney General
Jill.Thayer@doj.ca.gov

DATED: March 22, 2021

Marc J. Zilversmit
28 Boardman Place
San Francisco, CA 94103
(415) 431-3474
Counsel of Record for
Petitioner Jacob Townley Hernandez

